Department of Health and Human Servces
        OFFICE OF
   INSPECTOR GENERAL




 AFDC PAYMENTS AFTER DEATH




             .. SERVIQ'
          +t-\

                          JU   GmBS BROWN
                          Inspector General

                 cii/a
                            NOVEER 1994
                             OEI-0491-
                       OFFICE OF INSPECfOR GENERA

The mission of the Offce    of Inspector General (DIG), as mandated by Public Law 95- 452 , as
amended , is to protect the integrity of the Department of Health and Human Servces ' (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations , and
inspections conducted by three DIG operating components: the Offce of Audit Servces , the
Offce of Investigations , and the Office of Evaluation and Inspections. The DIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                           OFFICE OF AUDIT SERVICE
The DIG' s Offce of Audit Servces (OAS) provides all auditing servces for HHS , either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carryng out their respective responsibilties and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste , abuse , and
mismanagement and to promote economy and efficiency throughout the Department.

                           OFFICE OF INTIGATIONS
The DIG' s  Offce of Investigations (01) conducts criminal , civil , and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions
administrative sanctions , or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

               OFFICE OF EVALUATION AN INSPECTONS
The DIG' s  Office of Evaluation and Inspections (DEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department
the Congress , and the public. The findings and recommendations contained in these inspection
reports generate rapid , accurate, and up- to- date information on the effciency, vulnerability,
and effectiveness of departmental programs.

DEI's Atlanta Regional Offce prepared this report under the direction of Jesse J. Flowers
Regional Inspector General and Christopher Koehler, Deputy Regional Inspector General.
Principal DEI staff included:

  ATLA REGION                                        HEQUARTES
Joe Townsel Project Leader                           Wm. Mark Krushat , Sc.
Betty Apt    Team Leader                             Linda Moscoe
Jacqueline Andrews                                   Ann O' Connor
              EXECUTIVE SUMMAR
PUROSE
To determine if AFDC assistance is improperly paid on behalf of deceased persons.

BACKGROUN
Responding to Congressional concern  , in 1988 the General Accounting Office   (GAD)
reviewed the possibilty that public assistance benefits might be improperly continued
after a recipient's death. The GAO concluded that Aid to Families with Dependent
Children (AFDC) and other public assistance may have continued for up to 2 years or
more after the death of some recipients.

METHODOLOGY

To determine if States were stil issuing AFDC benefits after death , we analyzed a
probe sample of 54 cases with dates of death in 1992. We identified the 54 cases by
matching Social Security numbers for State public assistance cases with numbers that
Social Security Administration files showed to have been assigned to deceased persons.
We then matched the date of death for sample cases with the date that States
terminated public assistance.

FIING
NO AFC ASISTANCE WAS PAI ON                    BEHA OF DECEED PERSONS IN
OUR PROBE SAMLE

None of the deceased persons in our probe sample were receiving AFDC at the time
of their death. Therefore , no improper AFDC payments were made.

CONCLUSION

Based on our limited analysis of a probe sample , we could not conclusively show
whether or not public assistance payments were being made on behalf of deceased
AFDC recipients. However, we believe the universe of AFDC recipient deaths is too
small to warrant further review. We therefore closed our inspection.
                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .




                 TABLE OF CONTENTS

                                                                                                               PAGE
EXECU SUMY
INODUCI0N.................................................
FIING
 . No   AFDC Payments Made to Deceased Persons in Our Probe Sample. . . . . . . 3


CONCLUSION                                                                              . . . . . . . . . . . . . . . . 4

                          INTRODUCTION

PUROSE
To determine if AFDC assistance is improperly paid on behalf of deceased persons.

BACKGROUN
During the 1980s , Congress became concerned that federally-funded public assistance
benefits may be improperly continued after a recipient s death. In 1988 , Congress
asked the General Accounting Office (GAO) to determine if federally-funded benefits
were paid on behalf of deceased recipients. GAO concluded that Aid to Familes with
Dependent Children (AFDC), Food Stamps , and General Assistance may have
continued for up to 2 years or more after the death of some recipients. That finding
was based on a review of 229 cases in Maryland , Pennsylvania , and the District of
Columbia. Although GAO was unable to get complete information on the majority of
sampled cases , the agency estimated that about $72 000 in public assistance benefits
were paid after recorded dates of death of sampled recipients.

                             programs GAO reviewed , AFDC is the only one
Of the three public assistance
financed and managed by the Department of Health and Human Servces (HHS).
Medicaid was not included in the GAO review, but it is also a federally- funded
assistance program. Both AFDC and Medicaid are funded jointly by HHS and States.

AFDC agencies are responsible for terminating benefits to any recipient who dies.
Local caseworkers normally become aware of a death through sources such as funeral
directors and survving family members. If, however , a death of a recipient does not
become known to local AFDC agencies , improper AFDC benefits would likely
continue.

States currently match public assistance records with some Social Security
Administration (SSA) fies , such as the Number Identification fie. However, a match
is not made with SSA death records because of an SSA agreement with many States
prohibiting redisclosure of death information those States provide SSA. States are
required to verify applicants ' Social Security numbers (SSNs) with SSA before issuing
initial public assistance payments. After eligibilty is established , States submit SSNs to
SSA every 6 months to verify Social Security benefits   received by a public assistance
recipient.

METHODOLOGY

To identify the number of deceased people to whom States potentially were stil
issuing AFDC benefits , we first identified all States sending verification queries to
SSA. Then , we randomly selected 12 States from that group of States. The 12 States
submitted 1.5 milion recipient queries to SSA in November 1992. Of the 1.5 milion
queries , SSA identified 25 686 SSNs which had been assigned to persons shown
SSA' s files to be deceased. SSA provided us the dates of death for those persons.
We calculated the number of months between November 1992         and the reported dates
of death for the 25686 cases , and decided to initially focus on cases in which death
occurred in August 1992. We selected this 3-month timeframe (August to November)
assuming that within 3 months , State AFDC agencies should have taken administrative
action to discontinue public assistance to the deceased individual. The subgroup of
August death cases , from the 12 sample States , consisted of 5 620 cases.

To determine if AFDC payments were in fact being issued on behalf of deceased
recipients , we conducted a probe sample of the 5 620 death cases. For the probe , we
randomly selected 55 cases in 3 of the 12 sample States. The three States we selected
were New Jersey (20 cases), California (20 cases), and Florida (15 cases--all the death
cases identified in the State). We selected the three States based on the average
volume of SSN queries they submitted during a 6-month period , from September 1991
through February 1992. Specifically, we selected New Jersey and Florida because they
submitted the most queries , and California because it ranked near the middle of the
12 States. Those 3 States had a total of 2 381 death cases in August 1992.

We asked AFDC agencies in the three selected States to review their files and tell us
what kid of assistance the deceased individuals had received and when that assistance
was terminated. We reduced our probe sample from 55 to 54 cases because the New
Jersey agency had no record of 1 case. We then matched the date of death with the
date public assistance was terminated to ascertain if any improper payments were
made.

We used the results of the probe sample to determine if a complete study was
warranted. If our probe sample had shown improper AFDC payments were issued on
behalf of deceased persons , we would have continued our analysis to determine the
amount of benefits being paid improperly nationwide.

In addition to discussions with officials in New Jersey, California , and Florida , we
intervewed officials in three other States and four local AFDC agencies about the
potential for AFDC payments continuing after death , and how those deaths usually
become known to AFDC agencies.

This inspection was conducted in accordance with the
                                                       Quality Standard for Inspections
issued by the President s Council on Integrity and Effciency.
                                  FINDING

NO AFC ASISTANCE WAS PAI ON                 BEHA OF AN DECEED
PERSONS IN OUR PROBE SAMLE

None of the 54 deceased persons in our probe sample were receiving AFDC at the
time of their deaths. Although the computer match of State and SSA records included
both young and old people who received public assistance, the vast majority of
recipients in our sample of deceased recipients turned out to be of advanced age--not
children or young parents who tyically would receive AFDC. To ilustrate , the
average age of our sample members was 76. Only four people were under age 50
and their ages ranged from 32 to 41.

State and local officials we intervewed said the incidence of mortality among AFDC
recipients is quite low. They said that when such deaths do occur, AFDC staff usually
learn of the deaths timely. Therefore , payments rarely continue after the death.
ilustrate , survvors and funeral directors have an incentive to report deaths because
some States pay burial benefits. Also , when an AFDC payee dies , survvors frequently
report the death in order to have a new AFDC payee selected. The survvors
assuming responsibilty for deceased recipients ' children need the AFDC check issued
in their names. Since banks and stores usually will not cash checks without
identification , it is difcult for someone other than a payee to cash AFDC checks.
Also , post offices sometimes return checks addressed to a deceased person. At least
one State identifies deaths of AFDC recipients through periodic computer matches
with its bureau of vital statistics.

It is true that State agencies did not close all 54 cases during the month of death. Ten
were closed one or more months after death , one 12 months after death. Therefore
it is possible that States could have continued some public assistance other than
AFDC on behalf of some deceased persons. For example , prior to their deaths , all 54
deceased persons had received SSI-related Medicaid. Five of the 54 had also received
food stamps. However, it is unlikely that States actually continued such benefits after
the death of any of our probe sampled recipients.

First , the States closed all five food stamp cases during the month of death. Second
Medicaid funds are spent only when claims for medical servces are fied. Therefore
an agency s failure to close a Medicaid case during the month of death does not
necessarily result in an overpayment.
                            CONCLUSION

Based on our limited analysis of a probe sample , we could not conclusively show
whether or not public assistance payments were being made on behalf of deceased
AFDC recipients. However , not even one family in our probe sample was found to
have received such payments. Furthermore , the universe of AFDC deaths is so small
that widespread payments after death are unlikely. We believe that if payments occur
after death , the frequency is not significant enough to continue with a full inspection
which would require research on a significantly larger number of cases.   Such research
is particularly labor intensive and costly since the computer match with SSA does not
distinguish between AFDC and other tyes of public assistance cases. We are
therefore , closing our inspection without further review.
